U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

April 27, 2021

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Rranxburgaj v. Mayorkas
S. Ct. No. 20-1010

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 26,
2021. The government’s response is now due, after one extension, on April 28, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 28, 2021 within which to file the government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

cc:

See Attached Service List

20-1010
RRANXBURGAJ, DED
ALEJANDRO MAYORKAS, SECRETARY OF
HOMELAND SECURITY, ET AL.

NORA SAM AHMED
ACLU OF LOUISIANA
P.O. BOX 56157
NEW ORLEANS, LA 70156
504-522-0628
NAHMED@LAACLU.ORG
BEN C. FABENS-LASSEN
DLA PIPER LLP
ONE LIBERTY PLACE
1650 MARKET STREET
PHILADELPHIA, PA 19103
DOUGLAS R. MCKUSICK
THE RUTHERFORD INSTITUTE
PO BOX 7482
CHARLOTTESVILLE, VA 22906-7482
434-978-3888
DOUGLASM@RUTHERFORD.ORG
LEON RODRIGUEZ
SEYFARTH SHAW LLP
975 F STREET, N.W
WASHINGTON, DC 20004
202-828-3572
LERODRIGUEZ@SEYFARTH.COM

